OIG Investigative Reports, New Orleans, Louisiana - 07/14/2011 - Former Jefferson Parish Public School Board Employee Pleads Guilty To Conspiring To Embezzle Education Program Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Eastern District of Louisiana
Former Jefferson Parish Public School Board Employee Pleads Guilty to Conspiring to Embezzle Education Program Funds
July 14, 2011
GESELLE SAVOY, age 52, a resident of Alamogordo, New Mexico, pled guilty in federal court today before U. S. District Judge Mary Ann Lemmon to one count of conspiring to commit federal program fraud while employed as a Testing Technician in the Testing and Accountability Department of the Jefferson Parish Public School System (JPPSS), announced U. S. Attorney Jim Letten.
According to court documents, from February 2007 through September 2009, SAVOY and KIM WILLIAMS submitted fraudulent payroll documents for themselves and co-defendants, AMANDA JACKSON, DANAY JACKSON and TRACY WALKER so that defendants received approximately $132,000 in supplemental pay and stipends from JPPSS' Louisiana Education Assessment Program (LEAP), Graduate Exit Examination (GEE) tutoring fund, Education Excellent (EE) fund as well as a general fund. SAVOY and her co-defendants were all employees of JPPSS but none were certified teachers or qualified to perform tutoring, testing, or remediation for JPPSS.
According to the factual basis, SAVOY received 50 unauthorized payments from JPPSS totaling $ 37,958. SAVOY admitted she processed fraudulent payroll sheets for both AMANDA JACKSON and DANAY JACKSON, so that AMANDA JACKSON received $15,041 in illegal stipends and DANAY JACKSON received $9,712 in unauthorized pay.
Additionally, according to court records, AMANDA JACKSON told SAVOY to provide unauthorized stipends to an employee named TRACY WALKER. AMANDA JACKSON provided SAVOY with WALKER's name and employee number. SAVOY had never met or talked to WALKER but processed $11,820 in illegal stipends to WALKER. SAVOY believed AMANDA JACKSON and others received funds from the illegal payment provided to WALKER.
Upon sentencing, scheduled for October 12, 2011, SAVOY faces a maximum term of imprisonment of five (5) years, a $250,0000 fine, and three (3) years of supervised release following imprisonment.
The case was investigated by U. S. Secret Service, U. S. Department of Education, the Louisiana Electronic and Financial Crimes Task Force and the Jefferson Parish Sheriffs' Office. The case is being prosecuted by Assistant U. S. Attorney Julia K. Evans.
Download Factual Basis  PDF
Top
Printable view
Last Modified: 07/27/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov